Visa® Credit Card
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

Visa Platinum

0% Introductory APR for a period of eighteen (18) billing cycles.
After that your APR will be

7.90%, 9.90%, 12.90% or 16.90%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Visa Platinum Rewards

0% Introductory APR for a period of eighteen (18) billing cycles.

After that your APR will be

8.90%, 10.90%, 13.90% or 17.90%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Visa Cash Rewards

0% Introductory APR for a period of eighteen (18) billing cycles.

After that your APR will be

9.90%, 11.90%, 14.90% or 18.90%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

Visa Platinum
0% Introductory APR for a period of eighteen (18) billing cycles.
After that your APR will be 7.90%, 9.90%, 12.90% or 16.90%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.
Visa Platinum Rewards
0% Introductory APR for a period of eighteen (18) billing cycles.
After that your APR will be 8.90%, 10.90%, 13.90% or 17.90%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.
Visa Cash Rewards
0% Introductory APR for a period of eighteen (18) billing cycles.
After that your APR will be 9.90%, 11.90%, 14.90% or 18.90%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

Visa Platinum
0% Introductory APR for a period of eighteen (18) billing cycles.
After that your APR will be 7.90%, 9.90%, 12.90% or 16.90%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.
Visa Platinum Rewards
0% Introductory APR for a period of eighteen (18) billing cycles.
After that your APR will be 8.90%, 10.90%, 13.90% or 17.90%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.
Visa Cash Rewards
0% Introductory APR for a period of eighteen (18) billing cycles.
After that your APR will be 9.90%, 11.90%, 14.90% or 18.90%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

2 of 4

Visa® Credit Card
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Penalty APR and
When It Applies

Visa Platinum
19.90%
This APR will vary with the market based on the Prime Rate.
Visa Platinum Rewards
20.90%
This APR will vary with the market based on the Prime Rate.
Visa Cash Rewards
21.90%
This APR will vary with the market based on the Prime Rate.
This APR may be applied to the entire balance on your account if you:
• Make a late payment
How long will the penalty APR apply? If your APRs are increased for this reason,
the penalty APR will apply until you make at least six (6) consecutive minimum
payments when due.

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date
each month.

Minimum Interest Charge

None

For Credit Card Tips From
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection Bureau
at http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
• Annual Fee
• Account Set-up Fee
• Program Fee
• Participation Fee
• Additional Card Fee
• Application Fee

None
None
None
None
None
None

Transaction Fees
• Balance Transfer Fee
• Cash Advance/ATM Fee
• Foreign Transaction Fee
• Transaction Fee for Purchases

2% or $10.00, whichever is greater
2% or $10.00, whichever is greater
1% of each transaction in U.S. dollars
None

Penalty Fees
• Late Payment Fee
• Over-the-Credit-Limit Fee
• Returned Payment Fee

Up to $37.00
$25.00
$25.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Loss of Introductory APR: We may end your Introductory APR for purchases, balance transfers and cash advances and
apply the penalty APR if you are 60 days late in making a payment.
Application of Penalty APR: Your APR may be increased to the disclosed penalty APR if you are 60 days late in making
a payment or make a payment that is returned.

3 of 4

Visa® Credit Card
APPLICATION AND SOLICITATION DISCLOSURE
Effective Date
The information about the costs of the card described in this application is accurate as of October 3, 2020.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum, Visa Platinum Rewards and Visa Cash Rewards are secured credit
cards. Credit extended under this credit card account is secured by various personal property and money
including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge
as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint
account with the Credit Union excluding shares in an Individual Retirement Account or in any other account that
would lose special tax treatment under state or federal law, and (d) collateral securing other loans you have with
the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during
any periods when you are a covered borrower under the Military Lending Act your credit card will be secured
by any specific Pledge of Shares you grant us but will not be secured by all shares you have in any individual or
joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish
your credit card account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Disclosures
Late Payment Fee
Over-the-Credit-Limit Fee
Returned Payment Fee
Statement Copy Fee
Document Copy Fee
Rush Fee
Emergency Card Replacement Fee
PIN Replacement Fee
Card Replacement Fee
Unreturned Card Fee
Stop Payment for Convenience Check Fee
Minimum payment due

Inter-Office Address
VA-Credit Union Operations – Boulders

$37.00 or the amount of the required minimum payment, whichever is less.
$25.00
$25.00 or the amount of the required minimum payment, whichever is less.
$5.00
$5.00
$30.00
$30.00
None
$10.00
None
$20.00
3% or $25, whichever is greater

Please complete and fax or mail the application to:
Dominion Energy Credit Union
P.O. Box 26646, Richmond, VA 23261-6646
Phone: 800-268-6928 • Fax: 804-521-2510
4 of 4

